:/

No.

IN THE
SUPREME COURT OF THE UNITED STATES

michael carlton: lowe
(Your Name)

— PETITIONER

VS.
Minnesota State

— RESPONDENT(S)

PROOF OF SERVICE
I, michael carlton: lowe
, do swear or declare that on this date,
September 23
, 20_20_, as required by Supreme Court Rule 29 I have

served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
OFFICE OF THE CLERK, SUPREME COURT OF THE UNITED STATES, WASHINGTON,
DISTRICT OF COLUMBIA 20543-0001 : MINNESOTA ATTORNEY GENERALr KEITH
ELLISON @ 1400 Bremer Tower, 445 Minnesota Street, St. Paur,~~MN~55101

I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 23

2010.

fY\ idrvuO tonteVi \ I
(Signature)

